    EVALUATION REPORT


     YEAR 2000 READINESS OF
 AUTOMATED INFORMATION SYSTEMS
AT THE U.S. FISH AND WILDLIFE SERVICE

         REPORT NO. 98-I-701
          SEPTEMBER 1998
                                                                     A-IN-FWS-001-98-R


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240
                                                                         SEP 28 1998

                           EVALUATION REPORT

Memorandum

To:        Director, U.S. Fish and Wildlife Service
                                  9
From:      Robert J. Williams f&$LA : tcIA,a-
           Assistant Inspector General fo /Audits

Subject:   Evaluation Report on Year 2000 Readiness of Automated Information Systems
           at the U.S. Fish and Wildlife Service (No . 9 8 - I - 70 1)

                                INTRODUCTION
This report presents the results of our evaluation of the year 2000 (Y2K) readiness of
automated information systems at the U.S. Fish and Wildlife Service. The objective of our
review was to determine whether the Service (1) inventoried its automated information
systems and identified those systems that were mission critical and were not Y2K compliant;
(2) developed auditable cost estimates for renovating systems to be Y2K compliant; (3)
identified, by name, individuals responsible for ensuring that the Service is Y2K compliant;
(4) ensured that responsible individuals’ personnel performance evaluation plans included
critical elements related to identifying and remedying Y2K problems; (5) developed a
credible plan that included milestones and a critical path to ensure that the Service is Y2K
compliant; and (6) developed a contingency plan that would address the failure of any part
of the systems not being Y2K ready. We also reviewed the Service’s progress in
inventorying automated information systems components, including computer software,
hardware, and firmware; telecommunications systems; facilities; and data exchanges between
the Service and other Department of the Interior agencies or external entities for Y2K
problems. This review was conducted at the request of the Department of the Interior’s
Chief Information Officer to assist the Information Officer in monitoring the progress of
Departmental agencies in ensuring Y2K readiness, implementing Y2K compliant systems,
and validating the accuracy of the information reported by the Departmental agencies to the
Chief Information Officer.

BACKGROUND

The “Y2K problem” is the term used to describe the potential failure of information
technology systems, applications, and hardware related to the change to the year 2000. Many
computer systems that use two digits to keep track of the date will, on January 1, 2000,
recognize”double zero” not as 2000 but as 1900. This could cause computer systems to stop
running or to start generating erroneous data. The problem has been recognized as nationally
significant by the President in Executive Order 13073, issued in February 1998. The
Secretary of the Interior, in a December 1997 memorandum, stated that the Y2K problem
was critical to the Department in meeting its mission and that resolution of the problem was
one of his highest priorities. Further, Office of Management and Budget Memorandum
98-02, “Progress Reports on Fixing Year 2000 Difficulties,” issued on January 20, 1998,
requires all Federal executive branch agencies to ensure that Federal Government systems
do not fail because of the change to the year 2000 and to have all systems, applications, and
hardware renovated by September 1998, validated by January 1999, and implemented (that
is,“fixes to all systems--both mission critical and non-mission critical”) by March 3 1, 1999.
The Office of Management and Budget states in Memorandum 98-02 that it is to provide
“information to the Congress and the public as part of its [Office of Management and
Budget’s] quarterly summary reports on agency progress . . . [and] to report on the status of
agency validation and contingency planning efforts and on the progress in fixing . . .
equipment that is date sensitive.”

The Department has developed the “Department of the Interior Year 2000 Management
Plan,” which focuses on the resolution of the Y2K problem and provides an overall strategy
for managing Departmental mission-critical systems and infrastructure. The Department has
a multitiered approach to managing the Y2K problem that includes a top tier, which
comprises the Secretary of the Interior; the Information Technology Steering Committee,
which consists of the Chief of Staff and the Assistant Secretaries; and the Chief Information
Officer, who is responsible for the Department’s Y2K issues. This tier, which represents
senior-level Departmental managers, provides the Y2K project’s direction and resources and
ensures accurate reporting to external organizations, such as the Office of Management and
Budget and the Congress. A Departmentwide Y2K project team, which reports to the Chief
Information Officer and comprises representatives from each agency and the Office of the
Secretary, is tasked with developing the Department’s Year 2000 Management Plan, refining
inventory data on the Department’s mission-critical and information technology portfolio
systems,’ and monitoring and reporting on the progress of each conversion. In addition, a
Y2K Embedded Microchip’ Coordinators Team has been established to inventory and
monitor embedded microchip technology Y2K problems. The team is led by the Office of
Managing Risk and Public Safety and comprises representatives of the eight Departmental
agencies, the Denver Administrative Service Center, and various Departmental offices.




‘The portfolio is an inventory listing of 13 crosscutting or sensitive systems that are receiving attention at the
Secretarial level.

2Embedded microchips are “integrated circuits (miniature circuit boards)” that control “electronic devices,”
which include “elevators, heating, ventilation and air conditioning (HVAC), water and gas flow controllers;
aircraft navigational systems; and . . . medical equipment” and office devices such as telephones, facsimile
machines, pagers, and cellular telephones. (Department of the Interior’s Office of Managing Risk and Public
Safety “Year 2000 Embedded Microchip Hazards” [Web site])

                                                        2
The Department’s August 1998 “Quarterly Progress Report,” which was submitted to the
Office of Management and Budget, reported that the Department had 91 mission-critical
systems. Of the 91 mission-critical systems reported by the Department to the Office of
Management and Budget, the Service had 1 system (see the Appendix). The Service has a
project management team that comprises a Y2K executive (Assistant Director for
Administration); a Y2K manager (Computer Specialist, Information Resources
Management); eight Regional Y2K managers; and individual managers for computer
systems, telecommunications, and embedded microchips.

SCOPE OF EVALUATION

To accomplish our objective, we reviewed the documentation available that supported the
Service’s information submitted to the Department’s Chief Information Officer for the
August 1998 “Quarterly Progress Report.” We performed our evaluation during May
through August 1998 at the Service’s Office of Information Resources Management, located
in Arlington, Virginia. We interviewed personnel responsible for project coordination to
identify the Service’s plans and progress. We also interviewed, either in person, by
telephone, or by electronic mail, personnel involved in various aspects of the Y2K project,
including coordination, compliance identification, software remediation, and project
management.

The evaluation was conducted in accordance with the “Quality Standards for Inspections,”
issued by the President’s Council on Integrity and Efficiency, and included such tests and
inspection procedures considered necessary to accomplish the objective. Our conclusions
on the status of the progress made by the Service in addressing and remediating Y2K
problems were based on reviews of documentation maintained by the Service’s Information
Resources Management, program, and regional offices and on discussions with the various
Y2K coordinators throughout the Service and with individuals performing remediation or
replacement of noncompliant applications or hardware. As specifically agreed to in our
discussions with the Department’s Chief Information Officer, we did not validate or certify
that the Service’s systems or infrastructure were Y2K compliant.

                        RESULTS OF EVALUATION
Of the six areas that the Chief Information Officer requested us to evaluate, we concluded
that the U.S. Fish and Wildlife Service had completed actions on all six areas. Specifically,
the Service had identified its mission-critical systems, developed auditable cost estimates,
designated responsible individuals for ensuring Y2K compliance, had updated annual
personnel performance evaluation plans to include critical elements relating to remedying
Y2K problems, developed credible plans that included milestones, and developed
contingency plans for its mission-critical systems. The specific actions taken by the Service
related to each area and other issues affecting the Service’ readiness efforts are discussed in
the paragraphs that follow.



                                               3
Automated Information Systems Inventory

Although the Service had performed an inventory of all of its automated information
systems, the Service had not reported all of its mission-critical systems to the Department’s
Chief Information Officer. According to the Department’s milestone dates, agencies were
required to have mission-critical systems inventoried and systems that were not Y2K
compliant identified by June 1997. Additionally, Office of Management and Budget
Memorandum 98-02 requires agencies to report on their total number of mission-critical
systems. In the Department’s August 1998 report to the Office of Management and Budget,
the Service reported that it had one mission-critical system, the Law Enforcement
Management Information System (LEMIS). However, we found that the Service had one
additional system which was critical to the Service’s mission and was not Y2K compliant.
Specifically, we believe that either the Federal Aid Project and Accounting Ledger System
(FAPALS) or the replacement system for FAPALS, the Federal Aid Information
Management System (FAIMS), should have been reported as mission critical. One of these
systems should have been reported to the Department’s Chief Information Officer as a
mission-critical system because of the system’s impact on the Federal Aid Program, which
supports the Service’s mission “to conserve, protect, and enhance fish and wildlife and their
habitats.”

Although the system owner and the manager had not determined whether FAPALS or
FAIMS was mission critical by July 1998, one of the systems should have been reported as
mission critical because the Federal Aid Program is responsible for administering the Sport
Fish and Wildlife Restoration grant programs. The Federal Aid Program provides funds to
states for various sport fish and wildlife restoration programs, and in fiscal year 1998, the
Service apportioned more than $427 million for these programs. The systems maintain
Federal aid grant records and fiscal ledgers used to monitor grant compliance and to generate
payments to the states. The systems also interface with the Department of Health and
Human Services Payment Management System for disbursing Federal aid funds to states
and with the Service’s Federal Financial System for recording Federal aid costs. Therefore,
the Service had not ensured that a thorough assessment of mission- and nor-mission-critical
systems was performed. Without a thorough assessment of its automated information
systems, the Service cannot identify the impact that having automated information systems
which are not Y2K compliant would have on the Service in accomplishing its mission and
core capabilities. However, the Service on September 2, 1998, identified the Federal Aid
Information Management System as mission critical and reported this system to the
Department’s Chief Information Officer. Therefore, the Service subsequently completed this
action.

The Department’s Chief Information Officer requested that we determine the progress of the
Service in addressing the Y2K problem regarding telecommunications and embedded
microchips in information systems and facilities. We found that the Service had initiated
action at the time of our review to inventory telecommunications equipment and embedded
microchips in information systems and facilities. The Service’s telecommunications and
embedded chip coordinators had received inventory data from Service regional and field
offices. A national database was being constructed of all of the data obtained, and the data
will be used by the Service to identify potential Y2K problems and to develop action plans.

Auditable Cost Estimates

We found that the Service had reported correctly that there were no applicable Y2K costs for
its one mission-critical system, LEMIS. LEMIS was scheduled for replacement with a
system that would be Y2K compliant by design. Although we believe that FAPALS or
FAIMS should be reported as mission critical (see section “Automated Information Systems
Inventory”), FAIMS is scheduled to replace FAPALS in fiscal year 1999. However, since
the replacement was not designed specifically for remedying Y2K problems in FAPALS,
no costs for Y2K compliance would be reportable. Therefore, the Service had completed this
action.

Designation of Responsible Individuals

We found that the Service had specifically designated, by name, the Y2K executive, the
Service Y2K coordinator, Y2K coordinators in each of the Service’s regional offices, and
Y2K coordinators for embedded microchips and telecommunications. Therefore, the Service
had completed this action.

Annual Personnel Performance Evaluation Plans

The Secretary of the Interior’s December 1997 memorandum required that “a critical
performance element for identifying and remedying” the Y2K problem be included as part
of each responsible official’s annual performance evaluation plan. Responsible officials are
defined ‘in the memorandum as agency directors, agency Y2K executives, agency
information resources management coordinators, safety officials, and all others as
determined by the Y2K executives. We found that the Y2K executive and managers and the
Service’s information resources management coordinator had performance elements
addressing Y2K objectives in their annual performance evaluation plans. Therefore, the
Service had completed this action.

Plan for Milestones

We found that the Service had developed a project plan for its reported mission-critical
system, LEMIS, and that the plan included reasonable milestone dates. Although FAPALS
or FAIMS was not reported by the Service as mission critical, the system owner and the
manager had developed a project plan that included reasonable milestone dates. As of July
1998, LEMIS and the replacement system for FAPALS had scheduled implementation dates
of November 1998. Therefore, the Service had completed this action.




                                             5
Contingency Plans

The Service had a contingency plan for its reported mission-critical system. The
contingency plan for LEMIS is to enter events that occur after December 3 1, 1999, into the
system manually rather than electronically. We found that the contingency plan for LEMIS
had been implemented, and Service officials said that it will remain in place until the
replacement system is implemented. In addition, the Service has developed a contingency
plan for FAIMS, which is the replacement system for FAPALS. Federal Aid Program
management stated that the replacement system is to be implemented in November 1998 and
will be Y2K compliant. The contingency plan for FAIMS is to create database backups that
can be retrieved by redundant hardware systems and manually uploaded to both the
Department of Health and Human Services and the Service’s Federal Financial System
systems. Therefore, the Service had completed this action.

Other Issues

We found that the Service’s readiness efforts were affected by other issues that should be
addressed as follows:

        - Contract Language. Department of the Interior Acquisition Policy Release 1997-
6, “Year 2000 Contract Specification,” issued in April 1997, requires appropriate contract
language to be included in all acquisitions that would pertain to Y2K compliance issues.
However, the Service’s contract issued in January 1998 to replace the Federal Aid Project
Accounting and Ledger System did not include the appropriate contract language as required
by the policy release to ensure that the replacement system would “either be year 2000
compliant as delivered or if noncompliant at that time be upgraded to be year 2000 compliant
at no additional cost to the Government.” On September 3, 1998, the Service took action to
amend the contract with the appropriate contract language.

         - Independent Verification and Validation. According to the Service’s Y2K
Master Plan, no independent verification and validation tests are to be performed on the
LEMIS replacement system being developed by the Service. Rather, system testing and
validation are to take place throughout the development cycle of the replacement system,
with full operational system test and validation occurring before implementation. We
believe that the Service should have specific independent Y2K testing, verification, and
validation performed on the replacement system. The Department’s draft guidelines require
that independent verification and validation, which is “a process whereby the products of the
software development life cycle phases are independently reviewed, verified, and validated
by an organization that is neither the developer nor the acquirer of the software,” be
performed. Therefore, the Service’s plan did not meet the Departmental requirements for
independent verification and validation. However, the Service provided its draft Independent
Verification and Validation (IV&V) Plans for LEMIS and FAIMS, dated September 14,
1998, which are in compliance with Departmental guidelines for independent verification
and validation testing. The plans state that independent verification and validation will be


                                             6
performed by a Service organization independent of either the developers of the systems or
the systems’ owners.

During our September 4, 1998, exit conference with Fish and Wildlife ServiceY2K officials
on the preliminary draft of this report, the officials provided documentation that they said
they believed would resolve some of the conditions identified in the preliminary draft report.
Based on the documentation, we considered the actions on all six areas of the objective to
be completed, and we have changed the report accordingly.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of the Service’s personnel in the conduct of this evaluation.
                                                                                           APPENDIX

                    U. S. FISH AND WILDLIFE SERVICE
                MISSION-CRITICAL SYSTEMS INVENTORY*



                                                                                        Estimated
     System Name or                                                                      Cost for
        Acronym                                  Description                           Compliance


Law Enforcement                       A law enforcement system for                           0
Management Information                recording and managing
System (LEMIS)                        criminal and civil
                                      investigations conducted by
                                      the U.S. Fish and Wildlife
                                      Service.




*Information is from the “Department of the Interior Year 2000 Management Plan,” issued in February 1998.

                                                    8
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:

Sending written documents to:                                   Calling:



                     Within the Continental United States

U.S. Department of the Interior                    Our 24-hour
Office of Inspector General                        Telephone HOTLINE
1849 C Street, N.W.                                l-800-424-508 1 or
Mail Stop 5341                                     (202) 2085300
Washington, D.C. 20240


                                                   TDD for hearing impaired
                                                   (202) 208-2420 or
                                                   l-800-354-0996


                     Outside the Continental United States

                                    Caribbean Retion

U.S. Department of the Interior                        (703) 235-922 1
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22201



U.S. Department of the Interior                        (67 1) 647-605 1
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
Toil Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FFS/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420



1849 C Street, N.W.
